      Department of Homeland Security




    Independent Review of U.S. Coast Guard's Reporting 

   of FY 2012 Drug Control Performance Summary Report 





OIG-13-27                                    January 2013

               @
               .'.~" ,    OF.FICE OF INSPECTOR GEI\I£RAL
                              Departm ent of Homeland   S~~uri(y




                                   JAN 2 9 2013
MEMORANDUM FOR:               Rear Admiral Stephen P. Metruck
                              Chief Financial Officer
                              U.S. Coast Guard

FROM:                         Anne l. Richards   eM.L;l.UJ
                              Assistant Inspector General f or Audits

SUBJECT:                      Independent Revie w of u.s. Coost Guard', RI!pGrtinr; of
                              FY 1012 Drug Control Performance Summary Report

                                                Independent Review of u.s. Coost
Attached for your information is our final report,
Guard's Reporting of FY 2012 Drug Control Performonce Summary Report. U.s. Coast
Guard's management pr~pared the Performance Summary Report and management
assertions to comply with the requirements afthe Office of National Drug Control Policy
Circular, Drug Control Acwunting, dated May 1, 2007.

We contracted with the independent public "ccounting firm KPMG LLP to perform the
review. KPMG LLP is responsible for the ~tt~ched independent accountants' report,
dated January 18, 2013, and the conclusions eKpressed in it. We do not eKpress an
opinion on the Performance Summary Report and management's assertions. This
report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254· 4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) United States Coast Guard (USCG) for the year ended September 30, 2012. We have
also reviewed the accompanying management’s assertions for the year ended September 30, 2012.
USCG’s management is responsible for the Performance Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management’s assertions. Accordingly, we do not express such an opinion.

Management of USCG prepared the Performance Summary Report and management’s assertions to
comply with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug
Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2012, is not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly stated, in
all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and USCG, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 18, 2013 





                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Department of                   Commandant                     2100 Second Street. S.W .
Homeland Security                    United States Coast Guard      Washington, DC 20593-7681
                                                                    Staff Symbol: DC0-81
                                                                    Phone: (202) 372-1340
United States                                                       Email:timothy.g.meyers@uscg.mil
Coast Guard


                                                                   7110
                                                                   January 18,2013

Ms. Sandra John
Department of Homeland Security
Director of Financial Management
Office of the Inspector General


Dear Ms. John,

In accordance with the Office of National Drug Control Policy Circular: Annual Accounting of
Drug Conlrol Funds dated May 1,2007, enclosed is the Coast Guard' s final FY 2012
Performance Summary Report.

If you require further assistance on this information, please contact LCDR Timothy Meyers,
202-372-1340.

                                             Sincerely,

                                              rtc~ , c.. o fl. U5-( cr
                                             H. L. MORRlSON
                                             Commander, U.S. Coast Guard
                                             Acting Chief, Office of Performance Management
                                             & Assessment

Enclosure (I) FY 2012 Performance Summary Report

Copy:      DHS Budget Office
Enclosure (1) to letter dated January 18, 2013 





                                    Drug Budget


       United States Department of Homeland Security


                        United States Coast Guard


              Performance Summary Report FY 2012 





01/17/2013                                              Created by DCO-81


                                         Page 1 of 6

Enclosure (1) to letter dated January 18, 2013 


I. PERFORMANCE INFORMATION

Decision Units: Primary Outcome Measure

NOTE: Although the Coast Guard appropriation is apportioned along budget decision
unit lines (i.e., Acquisitions, Construction & Improvements (AC&I), Operating Expenses
(OE), Research Development Testing and Evaluation (RDT&E), and Reserve Training
(RT)), the Coast Guard does not manage performance along decision unit lines. This is
impractical due to the multi-mission performance of our assets, which transcends budget
decision units.

The Coast Guard’s drug interdiction performance is best summarized by the lead outcome
measure of the program. This measure is the central focus of its Performance Summary
Report. The Coast Guard Maritime Law Enforcement Program has a suite of metrics that
support the lead outcome measure. The lead outcome measure and its supporting metrics
suite were validated during a 2007 Office of Management and Budget (OMB) Program
Assessment and Rating Tool (PART) Evaluation. The Coast Guard uses the Consolidated
Counterdrug Database (CCDB) as the authoritative source for estimating illicit drug flow
through the transit zone. Use of the CCDB permits the Coast Guard to evaluate its
performance on a quarterly basis. It should be noted that CCDB cocaine movement
estimates include all confidence maritime flow, which translates to a lower performance
result for cocaine removal rate. DHS leadership reviewed and approved this metric as a
Coast Guard Management metric in 2010. This metric is included as part of the Coast
Guard’s annual budget submission.

Measure: Cocaine Removal Rate (Removal rate for cocaine from non-commercial vessels
in the maritime transit zone (CCDB)).

Table 1: Cocaine Removal Rate

    FY 2008     FY 2009        FY 2010         FY 2011        FY 2012          FY 2012          FY 2013
     Actual      Actual         Actual          Actual         Actual           Target           Target
     13.2%       15.0%          13.5%           11.6%          13.4%            16.5%            14.1%

 (1) Describe the measure. In doing so, provide an explanation of how the measure (a) reflects the purpose of
the program, (b) contributes to the National Drug Control Strategy, and (c) is used by management of the
program. This description should include sufficient detail to permit non-experts to understand what is being
measured and why it is relevant to the agency’s drug control activities. 1

The goal of the Coast Guard’s Drug Interdiction program is to reduce the supply of illegal
drugs within the United States by denying smugglers the use of air and maritime routes by
projecting an effective law enforcement presence in and over the six million square mile
transit zone of the Caribbean Sea, the Gulf of Mexico and the Eastern Pacific Ocean. The
Coast Guard’s primary outcome measure, the Cocaine Removal Rate, indicates how
1
 Requirements 1 through 4 in this section are drawn from the Office of National Drug Control Policy
Circular: Drug Control Accounting, dated May 1, 2007.

01/17/2013                                                                         Created by DCO-81

                                               Page 2 of 6

Enclosure (1) to letter dated January 18, 2013 


effective the program is at disrupting the flow of cocaine traveling via non-commercial
maritime means toward the United States. The more cocaine bound for the United States
that the Coast Guard removes, the less supply of cocaine available within the United States.
The cocaine removal rate is calculated by dividing the total amount of cocaine removed
(drugs interdicted, jettisoned, scuttled) by the Coast Guard by the total estimated non­
commercial maritime movement of cocaine towards the United States. Both of these
assessments are captured and validated in the CCDB.

The 2012 National Drug Control Strategy maintains the interagency, transit zone removal
rate goal for cocaine at 40% by 2015; a goal originally set in the 2007 National Drug
Control Strategy. With over 80% of the cocaine moving through the transit zone via non­
commercial maritime means, the national goal is achievable with a higher Coast Guard
cocaine removal rate, assuming no decrease in domestic and international partner agency
performance to achieve that 40% goal. Maritime Law Enforcement program managers
monitor the cocaine removal rate, watching for both changes in Coast Guard removals as
well as increases or decreases in flow. Any changes are diagnosed to determine the cause
and to develop strategies and tactics to continue to increase the removal rate. Factors that
can impact the removal rate include, but are not limited to, changing modes, tactics and
routes by the transnational criminal organizations (TCOs); increased or decreased patrol
effort by the Coast Guard or its drug interdiction partner agencies/nations; the availability,
quality and timeliness of tactical intelligence; new or upgraded diplomatic and legal tools;
and the fielding of new capabilities (National Security Cutter, Fast Response Cutter and
HC-144A aircraft, for example).
(2) Provide narrative that examines the FY 2012 actual performance results with the FY 2012 target, as well
as prior year actual results. If the performance target was not achieved for FY 2012, the agency should
explain why this is the case. If the agency has concluded it is not possible to achieve the established target
with available resources, the agency should include recommendations on revising or eliminating the target.

In FY 2012, there was an observed increase in cocaine flow being smuggled through the
transit zone via non-commercial maritime means—796 Metric Tons (MT) in FY 2012
compared to 652 MT in FY 2011. Of the FY 2012 non-commercial maritime flow, the
Coast Guard removed 107 MT of cocaine, up from its FY 2011 total of 75.5 MT. Relative
to the total estimated movement of non-commercial maritime cocaine destined for the
United States in FY 2012 captured in the CCDB, the Coast Guard removed 13.4% of this
estimated flow, falling short of its target of 16.5%. Comparatively, the Coast Guard’s
cocaine removal rate was 11.6% in FY 2011. The total number of Coast Guard removal
events increased in FY 2012 (129 in FY 2011 to 162 in FY 2012), as did the number of
Coast Guard cocaine removal events in FY 2012 (90 in FY 2011 to 108 in FY 2012).

Reduced availability and reliability of air and surface (detection and interdiction) assets
continued to hinder counter-drug mission performance in the drug transit zone. The
advancing age of the Coast Guard’s cutter fleet led to increased unscheduled maintenance
days and casualties, reducing the number of deployable assets available to support Joint
Interagency Task Force South (JIATF-S). Through the 2012 Department of Homeland
Security (DHS) Statement of Intent, the Coast Guard planned to provide 2,190 cutter days,
1,460 Aviation Use of Force (AUF) deployed days at seas (DDAS), and 4,700 Maritime
01/17/2013                                                                           Created by DCO-81

                                                 Page 3 of 6

Enclosure (1) to letter dated January 18, 2013 


Patrol Aircraft (MPA) hours to JIATF-S, but was only able to provide 1,947 cutter days,
1,046 AUF DDAS, and 3,834 MPA hours for FY 2012 or approximately 89% of intended
cutter days, 72% of AUF days, and 82% of intended MPA hours.

Since FY 2011, the Coast Guard has decommissioned four of its twelve 378’ high
endurance cutters (WHEC), yet only two operational national security cutters (NSC) and
less capable medium endurance cutters are available to fill the resulting transit zone patrol
hour gap. Prior to the NSC, WHECs were historically the Coast Guard’s most effective
surface asset for cocaine removals due to their greater endurance and more robust
command and control suite compared to other Coast Guard surface platforms. Cutter
endurance is a key contributor to countering the maritime cocaine threat in the remote, vast
Eastern Pacific transit zone vector. The reduction in WHEC available cutter days reduced
the opportunity for additional cocaine removals and may have contributed to the Coast
Guard missing its FY 2012 Cocaine Removal Rate target. As more capable NSCs continue
to replace the aging WHEC fleet and close the major cutter patrol hour gap, it is expected
that cocaine removal rate performance will increase.

In addition to reduced asset and resource availability, the following also contributed to the
Coast Guard missing its FY 2012 Cocaine Removal Rate target:
    •	 Increased flow of cocaine smuggled through the transit zone with no corresponding
        increase in Coast Guard assets on scene for detection and interdiction;
    •	 Reduced maritime domain awareness throughout the JIATF-S operating area; and
    •	 Increasingly sophisticated and evolving Transnational Criminal Organization
        tactics (e.g. greater use of self-propelled semi- and fully-submersibles).

(3) The agency should describe the performance target for FY 2013 and how the agency plans to meet this
target. If the target in FY 2012 was not achieved, this explanation should detail how the agency plans to
overcome prior year challenges to meet targets in FY 2013.

The Coast Guard’s target for FY 2013 is to remove 14.1% percent of the cocaine moving
via non-commercial maritime means towards the United States. This target was developed
by examining historical trends, as well as forecasting asset and resource availability along
with the estimated flow of cocaine. The Coast Guard works cooperatively with other
federal agencies to carry out the National Drug Control Strategy, including support for the
JIATF-S counter drug detection and monitoring mission. To increase interdiction capacity
and capability, the Coast Guard has several initiatives which are expected to come to
fruition in FY 2013. A third National Security Cutter (STRATTON) will be available for
deployment to the JIATF-S Area of Responsibility. The Coast Guard will continue to
deploy surface and aviation assets and law enforcement teams in support of
SOUTHCOM’s OP MARTILLO, designed to push drug traffickers out of the littorals and
farther off shore where they are more vulnerable to interdiction and prosecution in the
United States. The Coast Guard and the U.S. Navy (USN) will continue to pursue
expansion of Airborne Use of Force capability with the USN expecting to deploy AUF
helicopters capable of nighttime operations in FY 2013 to improve the interdiction and
“end game” prosecution of drug traffickers using go-fast vessels. The Coast Guard will
continue its counter drug hidden compartment detection course at the Maritime Law
Enforcement Academy in FY 2013, increasing the number of specially trained boarding
01/17/2013                                    	                        Created by DCO-81

                                               Page 4 of 6

Enclosure (1) to letter dated January 18, 2013 


team personnel able to investigate, search, locate and access hidden compartments on
suspect vessels. With go-fast type vessels remaining the primary means of conveyance by
TCOs operating in and around the littorals, the Coast Guard will continue to strengthen
international partnerships through bilateral agreements, as well as provide training
programs and engage in professional exchanges to enhance partner nation capability and to
support Theater Security Cooperation initiatives. Such engagement strengthens ties with
source and transit zone partner nations and increases their maritime law enforcement
competency and capability throughout the transit zone. Based on its baseline of
performance and the expanded capabilities mentioned, the Coast Guard expects that it can
achieve its FY 2013 target.
(4) The agency should describe the procedures used to ensure performance data for this measure are accurate,
complete, and unbiased in presentation and substance. The agency should also describe the methodology used
to establish targets and actual results, as well as the data source(s) used to collect information.

The data used to calculate the Cocaine Removal Rate is drawn from the interagency-
validated CCDB. The amount of cocaine removed by the Coast Guard is the sum of all
cocaine that is physically seized by Coast Guard personnel 2 and all cocaine lost to the
TCOs due to the Coast Guard’s actions. The latter amount is, at times, an intelligence-
based estimate of the quantity of cocaine onboard a given vessel that is burned, jettisoned,
or scuttled in an attempt to destroy evidence when Coast Guard presence is detected.
Cocaine removals are drawn from the CCDB. Data entered into the CCDB is validated
through a quarterly, interagency vetting process. The estimated non-commercial maritime
flow of cocaine towards the United States is extracted from the CCDB. All data contained
in the CCDB are deemed to be as accurate, complete and unbiased in presentation and
substance as possible.

At least annually, the Coast Guard’s Maritime Law Enforcement Program and Deputy
Commandant for Operations’ Office of Performance Management and Assessment review
all the assumptions that factor into the setting of its out-year targets, and make adjustments
as necessary. Revisions to the targets are reported via the Department of Homeland
Security’s Future Year Homeland Security Program database.

The Maritime Law Enforcement Program last updated its out-year performance targets in
March 2012 in conjunction with normal target setting timelines. The key factors that drive
the target setting process are the estimated out-year cocaine flow, the projected availability
of Coast Guard resources (major cutters, long range MPA, Law Enforcement Detachments
(LEDET) and Airborne Use of Force (AUF) helicopters), and any anticipated changes in
Coast Guard capabilities, authorities, or partnerships that may impact cocaine removals.

II. MANAGEMENT’S ASSERTIONS

The following assertions, supported by the information presented above, satisfy the data,
estimation methods, and reporting systems criteria outlined in paragraph 7.b. of the
ONDCP Drug Budget Accounting Circular dated May 1, 2007:
2
    The final amount is determined by the receiving Organized Crime Drug Enforcement Task Forces agency.

01/17/2013                                                                        Created by DCO-81

                                               Page 5 of 6

Enclosure (1) to letter dated January 18, 2013 



   (1) Performance reporting system is appropriate and applied – The agency has a
   system to capture performance information accurately and that system was properly
   applied to generate the performance data.

The Coast Guard performance reporting system is appropriate and applied. It was
reviewed in a 2007 Independent Program Evaluation by the Center for Naval Analyses and
a 2007 OMB PART evaluation. Both reviews verified the appropriateness and application
of the performance reporting system, and the Coast Guard has made all significant changes
recommended to ensure continued validity.

   (2) Explanations for not meeting performance targets are reasonable – The 

   explanation(s) offered for failing to meet a performance target and for any 

   recommendations concerning plans and schedules for meeting future targets are 

   reasonable.


The Coast Guard did not meet its FY12 performance target. The explanations offered for
failing to meet the target are reasonable. The Coast Guard’s FY 2012 performance target
satisfied OMB Circular A-11 guidance for establishing targets.

   (3) Methodology to establish performance targets is reasonable and applied – The
   methodology described above to establish performance targets for the current year is
   reasonable given past performance and available resources.

The Coast Guard methodology to establish performance targets is reasonable and applied.
The Coast Guard uses a quantitative and qualitative process that reviews intelligence,
logistics, strategic and operational policy, capability, emerging trends, past performance,
and capacity variables impacting mission performance to establish performance targets.
Targets generated by the program manager are reviewed independently by performance
and budget oversight offices at Coast Guard Headquarters, as well as the DHS Office of
Program Analysis and Evaluation, prior to entry into budget documents and the DHS
Future Year Homeland Security Program database.

   (4) Adequate performance measures exist for all significant drug control activities

The 2007 OMB PART of the Coast Guard Drug Interdiction Program and 2007
Independent Program Evaluation by the Center for Naval Analyses validated the adequacy
of Coast Guard performance measures.

The agency has established one acceptable performance measure that covers all four
budget decision units for which a significant amount of obligations ($1,000,000 or 50
percent of the agency drug budget, whichever is less) were incurred in the previous fiscal
year. The metric was also reviewed and approved by DHS leadership in 2010.




01/17/2013                                                            Created by DCO-81


                                         Page 6 of 6

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Coast Guard

   Commandant
   Chief Financial Officer
   Chief Information Officer

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-27

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
